          Office of Inspector General




September 30, 2006

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA

SUBJECT: Audit Report – Address Management System Information – Great Lakes
         Area (Report Number DR-AR-06-008)

This report presents the results of our self-initiated audit of the Address Management
System (AMS) Information in the Great Lakes Area (Project Number 06XG040DR000),
This is one of a series of such audits. The information in this report will be included in a
nationwide capping report assessing AMS information. Our objective was to assess the
U.S. Postal Service’s management of delivery AMS quality review results to ensure
address information is correct and complete to effectively process and deliver the mail
in the Great Lakes Area.

Postal Service officials in the Great Lakes Area, Chicago, Gateway, and Lakeland
Districts effectively managed Delivery AMS quality review results for approximately 10
percent of their routes. However, opportunities exist for area officials to implement best
management practices from the New York Metro Area, New York District, to improve
the quality of AMS data to process and deliver the mail. Approximately 129,668 AMS
data errors may exist in the Great Lakes Area, Chicago, Gateway, and Lakeland
Districts because street reviews were not conducted for 8,770 routes. If the Chicago,
Gateway, and Lakeland Districts implemented a program similar to New York District,
they would be able to reduce errors by 32.97 percent, which would save the Postal
Service $2,678,506 over the next 10 years. We will report $2,678,506 of funds put to
better use in our Semiannual Report to Congress.

Currently, the Chicago, Gateway, and Lakeland Districts’ programs included performing
quality street reviews for 948 routes using local AMS officials, AMS specialists and
coordinators. However, AMS officials did not use available district resources, such as
delivery supervisors or appropriate designees, to conduct additional street reviews for
the remaining 8,770 routes. In addition, the associate supervisors’ training course given
to these districts’ delivery supervisors does not include specific information on AMS
quality street reviews. The Great Lakes Area District locations have not experienced
high Delivery Point Sequencing (DPS) volume; however, a decrease in AMS data errors
would help increase DPS mail volume and reduce operating costs.

We recommended the Vice President, Great Lakes Area, implement an AMS quality
review program similar to the New York District that includes providing training in AMS
quality street reviews to all delivery supervisors or appropriate designees. We also
recommended establishing an annual district schedule of AMS quality street reviews
and directing delivery supervisors or appropriate designees to review delivery routes
annually. Finally, we recommended the AMS office establish a tracking system for
street reviews.

Management agreed with our findings and recommendations and the $2,678,506 in
funds put to better use. Management implemented corrective actions during the audit to
ensure address information is correct and complete to effectively process and deliver
the mail in the Great Lakes Area, Chicago, Gateway, and Lakeland Districts. These
actions included: (1) providing training in AMS quality street reviews to all delivery
supervisors or appropriate designees, (2) establishing an annual district schedule of
AMS quality street reviews and directing delivery supervisors or appropriate designees
to review delivery routes annually, and (3) establishing a tracking system for street
reviews. Officials stated that the procedures would be in place by February 2007 and
the additional street reviews will begin in March 2007. The U.S. Postal Service Office of
Inspector General considers the actions taken by management responsive and they
should correct the issues identified in the findings. Management’s comments and our
evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery and Retail, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    Charles E. Bravo
    Paul J. Fagan
    Janice Caldwell
    Kelvin Mack
    Danita Aquiningoc
    David F. Martin
    Jakki M. Krage
    Mark Rosenwinkel
    Steven R. Phelps
Address Management System Information -                                                             DR-AR-06-008
 Great Lakes Area


                                            INTRODUCTION
    Background                     Address management has become the foundation for how
                                   the Postal Service moves mail. Over the years, the Postal
                                   Service has been striving to obtain the highest quality
                                   address information possible for internal use and for its
                                   customers. In March 1993, the Postal Service implemented
                                   Delivery Point Sequencing (DPS).1 DPS is the process of
                                   putting barcode mail into the carrier’s line of travel (LOT) to
                                   eliminate manual mail sorting, improve efficiency, and
                                   reduce costs.

                                   In 1994, the Postal Service established the Address
                                   Management System (AMS) to capture, correct, and
                                   complete address information to enhance the efficiency of
                                   mail processing and delivery through automation. Address
                                   information in the AMS is captured in sort programs used to
                                   process mail in DPS. A sort program developer creates sort
                                   programs as part of the Sort Program System (SPS), which
                                   is part of the National Directory Support System (NDSS).
                                   DPS sort programs are transferred to either a Mail
                                   Processing Barcode Sorter (MPBCS) or a Delivery Barcode
                                   Sorter (DBCS)2 for sorting mail into DPS.

                                   Mail that cannot be processed on automated equipment
                                   requires manual processing, which is less efficient and is
                                   costly to the Postal Service. During fiscal year (FY) 2005,
                                   the Postal Service processed 94 billion pieces of mail
                                   nationwide, including 72 billion pieces (77 percent)
                                   processed on automated equipment and the remaining
                                   22 billion pieces (23 percent) processed manually.

                                   In 2003, the Postal Service outlined a strategy to Enhance
                                   Address Quality in its Intelligent Mail Corporate Plan. The
                                   strategy includes improving the address database, filling
                                   change of address orders, and using Address Change
                                   Service. To improve the address database, the Postal
                                   Service established a Delivery AMS quality review program
                                   to evaluate the quality of AMS data and meet the goal of
                                   100 percent accurate AMS data nationwide.

1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers to change the automation
environment.
2
  DPS mail is also sorted on carrier sequence barcode sorters, a type of mail processing equipment used by smaller
Postal Service facilities.




                                                         1
Address Management System Information -                                                                DR-AR-06-008
 Great Lakes Area



                                    As part of the quality review program, National Customer
                                    Support Center (NCSC) teams annually conduct street
                                    reviews of 40 routes at each Postal Service district
                                    nationwide. The NCSC teams select 40 city or rural delivery
                                    routes based on Postal Service guidelines. For every route
                                    selected within a ZIP Code, two alternate routes are
                                    selected.3

                                    The street reviews include:

                                    •   Identifying all possible delivery addresses included in
                                        Address Information System products and the NDSS
                                        files.

                                    •   Validating the number of possible delivery addresses
                                        assigned to each carrier route.

                                    •   Validating the correct LOT or delivery sequence for each
                                        carrier route.

                                    •   Assigning ZIP+4 Codes to maximize compatibility with
                                        automated equipment.

                                    •   Verifying the standardization of addresses according to
                                        Publication 28, Postal Addressing Standards.

                                    •   Reviewing AMS database products to meet the needs
                                        and expectations of Postal Service customers.

                                    When a district scores below 98 percent on the street
                                    review, the NCSC team will review it every 6 months, and
                                    districts scoring from 98 to 100 percent will receive an
                                    annual review. Districts scoring 99 percent or higher may
                                    receive abbreviated route reviews, at the discretion of area
                                    or district officials.

                                    In addition to the NCSC street reviews, AMS district officials
                                    conduct street reviews of routes to maintain the accuracy of
                                    AMS data. Furthermore, carriers also identify AMS data
                                    changes based on their street deliveries. The carriers note

3
  The Delivery AMS Quality Street Review Guidelines state that NCSC will review 40 routes annually. Great Lakes
Area officials informed OIG that due to the availability of resources, NCSC is in the process of reducing the number of
street reviews they perform annually.



                                                          2
Address Management System Information -                                                              DR-AR-06-008
 Great Lakes Area


                                   address changes in their AMS edit books and submit the
                                   information to the AMS district officials using their Web
                                   Electronic Edit Sheet for review and correction in the AMS
                                   database.

                                   As the Postal Service continues to process mail on
                                   automated equipment, the quality of address information
                                   takes on new importance. Use of correct and complete
                                   address information can reduce costs to the Postal Service.

    Objective, Scope, and          Our objective was to assess the Postal Service’s
    Methodology                    management of the Delivery AMS quality review results to
                                   ensure address information is correct and complete to
                                   effectively process and deliver the mail in the Great Lakes
                                   Area. We obtained data on FYs 2005 and 2006 Delivery
                                   AMS quality reviews from the NCSC to analyze routes
                                   reviewed, AMS data errors identified, and performance
                                   scores. We selected the Great Lakes Area, Chicago,
                                   Gateway, and Lakeland Districts and the New York Metro
                                   Area, New York District to perform our reviews, based on
                                   the NCSC performance scores identified by Delivery AMS
                                   quality review results.4

                                   We obtained and reviewed prior AMS review results for the
                                   New York District, which showed street review performance
                                   scores consistently above 99 percent. As a best
                                   management practice, we evaluated the feasibility and
                                   applicability of the New York AMS data maintenance
                                   program to other Postal Service districts. Our review of
                                   performance scores showed that the Chicago District was
                                   consistently below 98 percent. In addition, the Gateway and
                                   Lakeland Districts FY 2006 scores were below 98 percent.
                                   (See Appendix A.) We evaluated the district’s AMS data
                                   maintenance process to determine if they could improve
                                   their programs. We also reviewed the district’s FY 2006
                                   DPS information to analyze their DPS volumes in relation to
                                   the Postal Service goal.5



4
  We selected the Chicago District based on their historically low performance scores, and we selected the New York
District based on its historically high performance scores and improvements to the AMS process. At the request of
Great Lakes Area officials, we also included Gateway and Lakeland Districts’ FY 2006 street review results in our
scope – they also have historically low AMS performance scores.
5
  We are planning a future review that will incorporate DPS percentages, to identify opportunities to generate
revenue, reduce costs, and improve customer service.



                                                         3
Address Management System Information -                                        DR-AR-06-008
 Great Lakes Area


                             We conducted this audit from July to September 2006 in
                             accordance with generally accepted government auditing
                             standards and included such tests of internal controls as we
                             considered necessary under the circumstances. We
                             discussed our observations and conclusions with
                             management officials and included their comments where
                             appropriate. We did not use any computer-generated data
                             to develop our conclusions.

 Prior Audit Coverage        The U.S. Postal Service Office of Inspector General (OIG)
                             has issued one audit report, directly related to our audit
                             objective:

                             Address Management Systems – Southeast Area – Rio
                             Grande District (Report Number DR-AR-06-001,
                             January 25, 2006). The report outlined opportunities to
                             improve the quality of AMS data and put $988,945 of
                             processing and delivery costs over the next 10 years to
                             better use. Management agreed with our findings,
                             recommendations, and monetary benefits.




                                             4
Address Management System Information -                                                                DR-AR-06-008
 Great Lakes Area


                                             AUDIT RESULTS
    Address Management              Postal Service officials in the Great Lakes Area, Chicago,
    System Information              Gateway, and Lakeland Districts effectively managed
    Great Lakes Area                Delivery Address Management System quality review
                                    results for approximately 10 percent of their routes.6
                                    However, opportunities exist for area officials to implement
                                    best management practices from the New York Metro Area,
                                    New York District, to improve the quality of AMS data to
                                    process and deliver mail. As illustrated in Chart 1, the Great
                                    Lakes Area, Chicago, Gateway, and Lakeland Districts may
                                    have approximately 129,6687 AMS data errors because
                                    street reviews were not conducted for 8,770 routes.8


                                                         Chart 1. Potential AMS Data Errors
                                                      Chicago, Gateway, and Lakeland Districts



                                                                                   Chicago
                                                                                    20,124




                                                      Lakeland
                                                       61,131

                                                                                             Gateway
                                                                                              48,413




                                           Source: Postal Service NCSC and Great Lakes Area Officials


                                    At the time of our review, the Chicago, Gateway, and
                                    Lakeland District’s programs included performing quality
                                    street reviews for 948 routes using local AMS officials, AMS
                                    specialists and coordinators.9 AMS officials did not use
                                    available district resources, such as delivery supervisors or
                                    appropriate designees, to conduct additional street reviews
                                    for the remaining 8,770 routes.

6
  The 10 percent represents the 948 routes reviewed out of the 9,718 total routes for the three districts (2,481 for
Chicago, 3,509 for Gateway, and 3,728 for Lakeland).
7
  Our projection of the number of errors that may exist in routes not reviewed is based on the formula NCSC uses in
its street reviews.
8
  The 8,770 routes not reviewed consist of the Chicago District with 2,236, Gateway District 2,901 and Lakeland
District 3,633.
9
  The 948 routes reviewed by the districts consist of the Chicago District with 245, Gateway District 608, and
Lakeland District 95.



                                                          5
Address Management System Information -                                                   DR-AR-06-008
 Great Lakes Area



                             In addition, the AMS Review Module in the associate
                             supervisors’ training course given to the districts’ delivery
                             supervisors does not include specific information on AMS
                             quality street reviews.

                             As stated earlier in our report, the Postal Service
                             established AMS to capture, correct, and complete address
                             information to enhance the efficiency of mail processing and
                             delivery through automation. DPS was created to eliminate
                             manual mail sorting, improve efficiency, and reduce costs.
                             Therefore, correct AMS address information is vital for sort
                             programs to process mail in DPS.

                             As illustrated in Table 1, for FY 2005, the Great Lakes Area
                             district locations have not experienced high DPS mail
                             volume percentages. A decrease in AMS data errors would
                             help increase DPS mail volumes and reduce operating
                             costs.


                                  Table 1. DPS Mail Volume Percentages for Fiscal Year 2005
                                   Great Lakes Area Districts           FY 2005 DPS Percentages
                                           Locations

                               Central Illinois                                                77.54
                               Chicago                                                         65.73
                               Detroit                                                         78.47
                               Gateway                                                         76.90
                               Greater Indiana                                                 78.82
                               Greater Michigan                                                77.41
                               Lakeland                                                        76.10
                               Northern Illinois                                               75.11
                               Southeast Michigan                                              76.51

                               Great Lakes Area Average                                        75.67


                                          Source: Postal Service Great Lakes Area Officials




                                                    6
Address Management System Information -                                                                 DR-AR-06-008
 Great Lakes Area



                                    If the Chicago, Gateway, and Lakeland Districts
                                    implemented a program similar to the New York District,
                                    they would be able to reduce errors by 32.97 percent,10
                                    which would save the Postal Service $2,678,506 over the
                                    next 10 years. We will report $2,678,506 of funds put to
                                    better use in our Semiannual Report to Congress. (See
                                    Appendix B.)

 Chicago District                   In FY 2005, the Chicago District had 2,481 city routes. As
                                    illustrated in Chart 2, the NCSC team reviewed 2 percent
                                    (40 of 2,481) of these routes according to Postal Service
                                    guidelines. The team identified 350 AMS errors,
                                    approximately nine errors per route. The district received a
                                    97.83 percent AMS performance score.11

                                    During this same period, Chicago AMS officials reviewed
                                    another 8 percent (205 of 2,481) of the routes and identified
                                    1,577 AMS data errors. Officials did not review the
                                    remaining 90 percent of the routes (2,236 of 2,481). Based
                                    on FY 2005 NCSC team reviews and the related error rate
                                    per route, 20,124 AMS data errors may exist.12




10
   The New York Metro error reduction rate factor is 72.56 percent, and the control group error reduction rate factor is
29.77 percent. The New York Metro error reduction rate factor is divided by the control group error reduction rate
factor (1.7256/1.2977), which equals 32.97 percent. The expectation is that the three districts will reduce their error
rate by 32.97 percent by implementing a program similar to the New York District.
11
   To compute a district’s AMS performance score, each error found during a route review is subtracted from the total
number of possible deliveries for the district. This adjusted possible delivery figure is then divided by the district’s
total possible deliveries to arrive at the district’s AMS performance score.
12
   The error rate for the Chicago District is based on the FY 2005 NCSC team review of 40 routes. The review
identified nine errors per route. A total of 350 errors were found during the team’s review which is then divided by the
40 routes which equals 8.75 errors per route. The error rate is rounded up to nine and multiplied by 2,236 routes not
reviewed which equals 20,124 potential AMS data errors.



                                                           7
Address Management System Information -                                                                               DR-AR-06-008
 Great Lakes Area



                                                        Chart 2. Routes Reviewed – Chicago District - FY 2005



                                                                     2,500

                                                                                                            2,236




                                             Total Routes Reviewed
                                                                     2,000
                                                                                                            90%

                                                                     1,500

                                                                     1,000
                                                                                               205
                                                                                   40          8%
                                                                      500
                                                                                   2%

                                                                        0
                                                                             NCSC Team   Chicago AMS   Not Reviewed
                                                                                           Officials

                                               Source: Postal Service NCSC and Great Lakes Officials
                                   The Chicago District’s AMS quality review program, which is
                                   administered by local AMS officials, included street reviews
                                   using AMS specialists and coordinators for 205 routes
                                   reviewed. 13 AMS officials also performed “desk reviews” for
                                   607 routes where carriers did not electronically submit their
                                   edit book update to district officials.14 AMS officials did not
                                   use available district resources, such as delivery
                                   supervisors or appropriate designees, to conduct additional
                                   street reviews for the remaining 2,236 routes. Officials
                                   stated their primary focus was ensuring timely mail delivery.

                                   In addition, the associate supervisors’ training course given
                                   to Chicago District’s delivery supervisors does not include
                                   specific information on AMS quality street reviews. The
                                   AMS review module only provides information on edit book
                                   updates and how to enter the changes into the automated
                                   system for submission to district officials. With the potential
                                   20,124 AMS data errors in the Chicago District, the
                                   efficiency of mail processing and delivery through
                                   automation may be adversely impacted.

 Gateway District                  In FY 2006, the Gateway District had 3,509 routes.15 As
                                   illustrated in Chart 3, the NCSC team reviewed 0.6 percent
                                   (20 of 3,509) of these routes according to Postal Service

13
   The AMS Coordinators are not permanent positions at the delivery offices. These coordinators are currently
carriers and clerks whose first priority is mail delivery.
14
   Desk reviews are based on discussions with carriers that had not submitted their edit books. These reviews do not
include physical street reviews of the routes.
15
   The district’s routes consist of 2,508 city routes and 1,001 rural routes.



                                                                             8
Address Management System Information -                                                                                  DR-AR-06-008
 Great Lakes Area


                                    guidelines. The team identified 345 AMS errors,
                                    approximately 22 errors per city route and three errors per
                                    rural route. The district received a 96.56 percent AMS
                                    performance score. During this same period, Gateway AMS
                                    officials reviewed another 17 percent (588 of 3,509) of the
                                    routes and identified 5,574 AMS data errors. Officials did
                                    not review the remaining 83 percent of the routes (2,901 of
                                    3,509). The 2,901 routes not reviewed represent 2,090 city
                                    routes and 811 rural routes. Based on FY 2006 NCSC
                                    team reviews and the related error rate per route, 48,413
                                    AMS data errors may exist.16

                                                                    Chart 3. Routes Reviewed – Gateway District - FY 2006

                                                                                                                 2,901
                                                                   3,500                                          83%
                                                                   3,000
                                           Total Routes Reviewed




                                                                   2,500

                                                                   2,000

                                                                   1,500                         588
                                                                                                 17%
                                                                   1,000           20
                                                                    500           0.6%

                                                                      0
                                                                           NCSC Team      Gateway AMS     Not Reviewed
                                                                                            Officials



                                                                   Source: Postal Service NCSC and Great Lakes Officials


                                    In addition, the associate supervisors’ training course given
                                    to Gateway District’s delivery supervisors does not include
                                    specific information on AMS quality street reviews. The
                                    AMS review module only provides information on edit book
                                    updates and how to enter the changes into the automated
                                    system for submission to district officials.

                                    With the potential 48,413 AMS data errors in the Gateway


16
   The error rate for the Gateway District, based on the FY 2006 NCSC team reviews of 20 routes (15 city and
five rural), is 22 errors per city route and 3 errors per rural route. A total of 345 errors were found during the team’s
review (329 errors on city routes and 16 errors on rural routes). To compute the city error rate, the 329 errors found
on city routes is divided by the 15 city routes, which equals 21.9 errors per city route (rounded down to 22). The 22 is
then multiplied by 2,090 city routes not reviewed, which equals 45,980 potential AMS data errors on city routes. To
compute the rural error rate, the 16 errors found on rural routes is then divided by the five rural routes, which equals
three errors per rural route. The three is then multiplied by 811 rural routes not reviewed which equals 2,433
potential AMS data errors on rural routes. The 45,980 potential errors on city routes, plus, 2,433 potential errors on
rural routes, equals 48,413 potential AMS data errors.



                                                                              9
Address Management System Information -                                                                                 DR-AR-06-008
 Great Lakes Area


                                    District, the efficiency of mail processing and delivery
                                    through automation may be adversely impacted.

 Lakeland District                  In FY 2006, the Lakeland District had 3,728 routes.17 As
                                    illustrated in Chart 4, the NCSC team reviewed 0.5 percent
                                    (20 of 3,728) of these routes according to Postal Service
                                    guidelines. The team identified 346 AMS errors,
                                    approximately 17 errors per route. The district received a
                                    96.97 percent AMS performance score.

                                    During this same period, Lakeland AMS officials reviewed
                                    another 2 percent (75 of 3,708) of the routes and identified
                                    695 AMS data errors. Officials did not review the remaining
                                    98 percent of the routes (3,633 of 3,708). The 3,633 routes
                                    not reviewed represents 2,550 city routes and 1,083 rural
                                    routes. Based on FY 2006 NCSC team reviews and the
                                    related error rate per route, 61,131 AMS data errors may
                                    exist..18


                                                                   Chart 4. Routes Reviewed – Lakeland District - FY 2006



                                                                 3,500
                                                                                                             3,633
                                         Total Routes Reviewed




                                                                 3,000
                                                                                                              98%
                                                                 2,500
                                                                 2,000
                                                                 1,500

                                                                 1,000             20           75
                                                                                  0.5%          2%
                                                                  500
                                                                    0
                                                                         NCSC Team       Lakeland AMS   Not Review ed
                                                                                            Officials

                                                                  Source: Postal Service NCSC and Great Lakes Officials




17
  The district’s routes consist of 2,610 city routes and 1,118 rural routes
18
  The error rate for the Lakeland District, based on the FY 2006 NCSC team reviews of 20 routes (15 city and five
rural), is 21 errors per city route and seven errors per rural route. A total of 346 errors were found during the team’s
review (310 errors on city routes and 36 errors on rural routes). To compute the city error rate, the 310 errors found
on city routes is divided by the 15 city routes, which equals 20.6 errors per city route (rounded up to 21). The 21 is
then multiplied by 2,550 city routes not reviewed, which equals 53,550 potential AMS data errors on city routes. To
compute the rural error rate, the 36 errors found on rural routes is then divided by the five rural routes, which equals
7.2 errors per rural route (rounded down to seven). The seven is then multiplied by 1,083 rural routes not reviewed
which equals 7,581 potential AMS data errors on rural routes. The 53,550 potential errors on city routes, plus, 7,581
potential errors on rural routes, equals 61,131 potential AMS data errors.



                                                                             10
Address Management System Information -                                                               DR-AR-06-008
 Great Lakes Area


                                   The Lakeland District’s AMS quality review program,
                                   administered by local AMS officials, did include street
                                   reviews using AMS specialists and coordinators for the 75
                                   routes reviewed. 19 AMS officials stated that their recent
                                   scoring below 98 percent from the NCSC review of 20
                                   routes was attributable to delays in edit book submissions.
                                   AMS officials did not use available district resources, such
                                   as delivery supervisors or appropriate designees, to conduct
                                   additional street reviews for the 3,633 routes.

                                   In addition, the associate supervisors’ training course given
                                   to Lakeland District’s delivery supervisors does not include
                                   specific information on AMS quality street reviews. The
                                   AMS review module only provides information on edit book
                                   updates and how to enter the changes into the automated
                                   system for submission to district officials. With the
                                   potential 61,131 remaining AMS errors in the Lakeland
                                   District, the efficiency of mail processing and delivery
                                   through automation may be adversely impacted.

 New York District                 The New York District has 2,202 city routes. In FY 2005,
                                   the NCSC team reviewed 2 percent (40 of 2,202) of these
                                   routes according to Postal Service guidelines. The team
                                   identified 195 AMS errors, approximately five errors per
                                   route, and the district received a 99.21 percent AMS
                                   performance score from the street review. The NCSC team
                                   did not review the remaining 98 percent of the routes (2,162
                                   of 2,202).

                                   In 1998, the New York District began an extensive AMS
                                   quality review program, administered by local AMS officials,
                                   which requires delivery units to complete AMS street
                                   reviews using existing staff. As part of the program, New
                                   York District officials added an AMS review module to the
                                   associate supervisors’ training course given to New York
                                   delivery supervisors. In addition, the New York AMS office
                                   established AMS review schedules for all delivery units and
                                   an accountability system that monitors the completion of
                                   AMS street reviews conducted by delivery supervisors or
                                   their designees. As a result, the New York District used
                                   existing staff to significantly increase its review coverage.


19
  The AMS Coordinators are not permanent positions at the delivery offices, but they are current carriers and clerks
whose first priority is mail delivery.



                                                         11
Address Management System Information -                                                               DR-AR-06-008
 Great Lakes Area


                                   In FY 2005, using their AMS review program, New York
                                   District officials established a goal to review all routes
                                   annually, which included routes reviewed by the district and
                                   the NCSC. The existing staff reviewed and implemented
                                   corrective actions for the AMS errors identified. AMS
                                   reviews conducted by delivery unit staff are implemented by
                                   all districts in the New York Metro Area, and the program
                                   has been very successful. Since its inception, all districts
                                   have achieved significant increases in AMS performance
                                   scores. The historical average performance score for the
                                   New York District is 99.03 percent.20

                                   During our audit, the Deputy Postmaster General and Chief
                                   Operating Officer issued a memorandum dated August 23,
                                   2006 on Address Management National Street Reviews.
                                   The memorandum stated that for FY 2007, trained field
                                   personnel would conduct all Delivery AMS Street Reviews.
                                   The Address Management National Street Review Team
                                   will not conduct onsite street reviews in FY 2007 and will not
                                   have funding to assist the field with travel costs. The FY
                                   2007 Delivery AMS Street Review schedule would continue
                                   to be coordinated through the area and headquarters
                                   address management. Street Review materials will
                                   continue to be provided by the NCSC.

 Recommendations                     We recommend the Vice President , Great Lakes Area,
                                     implement an AMS quality review program similar to the
                                     New York District that includes:

                                        1. Providing training in Address Management National
                                           Street Reviews to all delivery supervisors or
                                           appropriate designees.

                                        2. Establishing a district schedule of annual Address
                                           Management System Quality Street reviews and
                                           direct delivery supervisors or appropriate designees
                                           to review delivery routes annually.

                                        3. Requiring the Address Management System Office to
                                           establish a tracking system to monitor completed
                                           street reviews.


20
  The 99.03 percent is 1.03 percent above the 98 percent passing score. Districts scoring between 98 and 100
percent receive a NCSC street review once a year, and districts scoring 99 percent or higher have the option to
conduct an abbreviated review performed at the discretion of the area and/or district.



                                                         12
Address Management System Information -                                         DR-AR-06-008
 Great Lakes Area




 Corrective Actions          The Great Lakes Area officials implemented corrective
 Implemented                 action during our audit. Management agreed to: (1) provide
                             training in AMS quality street reviews to all delivery
                             supervisors or appropriate designees, (2) establish an
                             annual district schedule of AMS quality street reviews and
                             direct delivery supervisors or appropriate designees to
                             review delivery routes annually, and (3) establish a tracking
                             system for street reviews. Officials stated that the
                             procedures would be in place by February 2007 and the
                             additional street reviews will begin in March 2007.

 Management’s                Management agreed with the findings, recommendations,
 Comments                    and monetary benefits. The Great Lakes Area officials,
                             implemented corrective action during our audit.

                             Management stated that they will develop a standardized
                             AMS street review training to be given to all delivery units
                             employees by the district AMS offices. The training will
                             begin in mid-October 2006 with a target completion date of
                             February 2007.

                             The response also indicated that management will develop a
                             standardized AMS street review training to be given to all
                             delivery unit employees by the district AMS offices. The
                             training will begin in mid-October 2006 with a target
                             completion date of February 2007.

                             Management stated that each district will implement a
                             program for reviewing all routes by FY 2007, and the
                             responsibility for conducting the reviews will be at the
                             delivery unit level with coordination by the responsible
                             Manager, Post Office Operation or Postal Career Executive
                             Service Postmaster. Management also stated that the area
                             will conduct unannounced AMS quality street reviews in
                             each district beginning in March 2007.

                             Finally, the response indicated that the area will develop a
                             tracking system to record reviews completion. The tracking
                             system will track the overall score, a breakdown of the errors
                             detected, and the date the identified errors were corrected.
                             The tracking system will be available for use in October
                             2006. Management’s comments, in their entirety, are
                             included in Appendix C.




                                              13
Address Management System Information -                                    DR-AR-06-008
 Great Lakes Area


 Evaluation of               Management’s comments are responsive to our findings and
 Management’s                recommendations. Management’s corrective actions, taken
 Comments                    and planned, should correct the issues identified in the
                             findings.




                                            14
      Address Management System Information -                                                      DR-AR-06-008
       Great Lakes Area




                                   APPENDIX A
                        NATIONAL CUSTOMER SERVICE CENTER
                     REVIEW RESULTS FOR THE GREAT LAKES AREA



No.      Great Lakes        FY      FY 05     Achieved        Historical   Achieved    FY       FY 06      Achieved
         Area District      05      Score       98%           Average        98%       06       Score        98%
          Locations        Score    Date       Score          Score as      Score     Score     Date        Score
                            %                  FY 05          of FY 05      History    %                    FY 06

1      Central Illinois    98.56   10/13/04       Yes             97.90         No        **          **            **
2      Chicago             97.83    3/08/05        No             96.20         No    95.65     3/07/06            No
3      Detroit             97.36    7/19/05        No             98.50        Yes    98.37     5/18/06           Yes
4      Gateway             98.37    4/04/05       Yes             96.92         No    96.56     7/11/06            No
5      Greater Indiana     98.96    3/21/05       Yes             97.64         No    98.83     4/04/06           Yes
6      Greater             98.02    5/16/05       Yes             97.45         No        **          **            **
       Michigan
7      Lakeland            98.47    5/03/05       Yes             97.54         No    96.97    11/29/05            No
8      Northern Illinois   98.25    6/07/05       Yes             98.43        Yes        **          **            **
9      Southeast           98.35    6/21/05       Yes             98.42        Yes    98.66     5/16/06           Yes
       Michigan

                       Source: Postal Service National Customer Service Support Center officials
                    ** – National Customer Service Support Center Review has not been completed.




                                                         15
Address Management System Information -                                       DR-AR-06-008
 Great Lakes Area


                       APPENDIX B
  OFFICE OF INSPECTOR GENERAL CALCULATION OF FUNDS PUT
                      TO BETTER USE

The OIG identified $2,678,506 in funds put to better use over the next 10 years for the
Chicago, Gateway, and Lakeland Districts. This will be reported in our Semiannual
Report to Congress.

                 District                 Fiscal Year      Funds Put to Better Use

    Chicago                                  2005                            $842,757
    Gateway                                  2006                             859,041
    Lakeland                                 2006                             976,708

    Total                                                                   $2,678,506


The following assumptions were used in the calculation of the $2,678,506.

1. We used the New York Metro Area as our standard for predicting the cost savings
   possible for the Chicago, Gateway, and Lakeland Districts.

2. We assumed that all Postal Service areas other than New York Metro had not
   implemented an error reduction program over the time period of the AMS street
   reviews. These areas were our control group for purposes of estimating the net
   benefit of the New York Metro program.

3. The AMS National Street Review Model is used to calculate cost savings.
   Therefore, we assumed that it realistically represented costs that the Postal Service
   could save if it implemented a program that would reduce the incidence of AMS
   errors. However, in our opinion, any costs saved would have to be related to a
   reduction in overtime or casual hours, and therefore, labor rates used should be
   hourly overtime rates (which was not the case).

4. We used the AMS National Street Review Model unchanged, with one exception:
   the model had FY 1999 labor rates imbedded. We updated these rates to reflect
   FY 2007 rates by escalating by 2.4 percent per year to arrive at a projection.

5. We assumed that the cost of implementing an error reduction program would be
   negligible.

6. We assumed that the average cost per error for the Chicago, Gateway, and
   Lakeland Districts would remain constant before and after program implementation.




                                             16
Address Management System Information -                                        DR-AR-06-008
 Great Lakes Area


7. If the Chicago, Gateway, and Lakeland Districts began implementing a program
   immediately, FY 2007 would be devoted to setup and training. We assumed that
   cost savings would not begin until FY 2008. Our calculation of savings (funds put to
   better use) is a discounted cash flow analysis over a 10-year period. The amount
   we will report in our Semiannual Report to Congress is the present value of the
   estimated savings over the 10 years.

8. AMS errors can never be reduced to zero. We assumed the practical lower limit to
   be a 1 percent error rate. However, this constraint did not affect the calculation for
   the Chicago, Gateway, and Lakeland Districts in this instance.

9. We assumed that error rates on rural routes would respond to an error reduction
   program in the same way as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District due
    to uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                            17
Address Management System Information -              DR-AR-06-008
 Great Lakes Area


                 APPENDIX C. MANAGEMENT’S COMMENTS




                                          18
Address Management System Information -        DR-AR-06-008
 Great Lakes Area




                                          19
